               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Vehicle Maintenance Facility
         Efficiency – Capital Metro and
                  Pacific Areas

                       Audit Report




                                         September 30, 2013

Report Number DR-AR-13-007
                                                                       September 30, 2013

                                                 Vehicle Maintenance Facility Efficiency –
                                                          Capital Metro and Pacific Areas

                                                               Report Number DR-AR-13-007




BACKGROUND:
The vehicles owned by the U.S. Postal            72 percent at 64 and 67 percent,
Service represent a capital investment of        respectively; and exceeded unscheduled
nearly $3.5 billion. The fleet is maintained     maintenance by 10 and 7 percent,
using the vehicle maintenance program at         respectively. The Capital Metro and Pacific
321 Postal Service vehicle maintenance           areas also exceeded overhead labor costs
facilities that service over 215,530 vehicles.   by 13 and 19 percent, respectively and the
They also contract with commercial               Capital Metro Area exceeded vehicle
garages throughout the country for               operations' maintenance assistant support
maintenance and repair.                          workhours estimate by 29,887 workhours.
                                                 These conditions occurred because
The vehicle maintenance program mission          performance indicators had not been
is to ensure safe, dependable, and               appropriately modified, the vehicle fleet was
economical performance of vehicles owned         aging, there were mechanic and support
by the Postal Service. The maintenance           staff vacancies and a lack of management
facilities must meet maintenance and repair      oversight. We will address performance
service requirements, as well as be cost         indicators and aging of the fleet in ongoing
efficient and limit vehicle downtime. The        and future work. Reducing unscheduled
Postal Service established performance           maintenance costs and improving oversight
indicators to gauge the effectiveness and        would increase overall efficiency in these
efficiency of overhead and workload              areas, saving the Postal Service over $17
management at the maintenance facilities.        million.
In fiscal year 2012, Capital Metro and
Pacific areas vehicle maintenance                WHAT THE OIG RECOMMENDED:
expenses were $148,974,513 and                   We recommended the vice presidents,
$97,466,067, respectively.                       Capital Metro and Pacific Area Operations,
                                                 direct district managers fill vacant mechanic
Our objective was to assess the overall          and support staff positions to improve
efficiency of vehicle maintenance facility       inefficiencies in operations. Further, we
operations in the Capital Metro and Pacific      recommended the vice president, Capital
areas at selected facilities.                    Metro Area Operations, assess the
                                                 reporting structure for vehicle operations
WHAT THE OIG FOUND:                              maintenance assistants and require vehicle
Vehicle maintenance facility operations in       maintenance managers, or designees, to
eight of 16 districts in the Capital Metro and   provide adequate oversight to ensure they
Pacific areas were not operating at peak         perform their vehicle maintenance-related
efficiency. Facilities operated below the        duties.
scheduled maintenance national average of        Link to review the entire report.
September 30, 2013

MEMORANDUM FOR:             DAVID C. FIELDS
                            VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

                            DEAN J. GRANHOLM
                            VICE PRESIDENT, PACIFIC AREA OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                    Audit Report – Vehicle Maintenance Facility Efficiency –
                            Capital Metro and Pacific Areas (DR-AR-13-007)

This report presents the results of our audit of Vehicle Maintenance Facility Efficiency –
Capital Metro and Pacific Areas (Project Number 13XG008DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Vehicle Maintenance Facility Efficiency –
 Capital Metro and Pacific Areas                                                                                   DR-AR-13-007



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Vehicle Maintenance Efficiency ....................................................................................... 1

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary Impact ....................................................................................... 12

Appendix C: Management's Comments ........................................................................ 14
Vehicle Maintenance Facility Efficiency –
 Capital Metro and Pacific Areas                                                                        DR-AR-13-007



Introduction

This report presents the results of our audit of Vehicle Maintenance Facility (VMF)
Efficiency in the Capital Metro and Pacific Areas 1 (Project Number 13XG008DR000).
The objective of this audit was to assess the overall efficiency of vehicle maintenance
operations. See Appendix A for additional information about this audit.

The U.S. Postal Service operates one of the world’s largest transportation and delivery
fleets with over 215,530 2 vehicles, a capital investment of nearly $3.5 billion. The fleet is
maintained using the vehicle maintenance program at 321 Postal Service VMFs. The
Postal Service also contracts with commercial garages throughout the country for
maintenance and repair. The vehicle maintenance program ensures safe, dependable,
and economical performance of Postal Service vehicles. The Postal Service established
performance indicators to gauge the effectiveness and efficiency of the vehicle
maintenance program, such as scheduled and unscheduled maintenance, overhead,
and workload allocations. In fiscal year (FY) 2012, Capital Metro and Pacific areas'
vehicle maintenance expenses were $148,974,513 and $97,466,067, respectively.

Conclusion

VMF operations in eight of the16 districts in the Pacific and Capital Metro areas were
not operating at peak efficiency. Facilities were operating below the scheduled
maintenance national average of 72 percent, at 64 and 67 percent, and exceeded
unscheduled maintenance by 10 and 7 percent, respectively. The Capital Metro and
Pacific areas also exceeded the overhead labor costs by 13 and 19 percent,
respectively. Further, the Capital Metro Area exceeded Vehicle Operations Maintenance
Assistant (VOMA) 3 support estimates by 29,887 workhours. These conditions occurred
because performance indicators had not been modified, the vehicle fleet was aging, and
there were mechanic and support staff vacancies and a lack of management oversight.
Reducing unscheduled maintenance costs and improving oversight would increase
overall efficiency in these areas, saving the Postal Service over $17 million.

Vehicle Maintenance Efficiency

VMFs in selected districts in the Capital Metro and Pacific areas were not operating at
peak efficiency. Specifically, average scheduled maintenance for the Capital Metro and
Pacific areas was 64 and 67 percent, respectively, which was below the national



1
  The U.S. Postal Service Office of Inspector General (OIG) will include the results of the Eastern, Great Lakes,
Northeast, Southern, and Western area audits in a separate report.
2
  Postal Facts, dated January 16, 2013.
3
  Only the Capital Metro Area had VOMAs.

                                                           1
Vehicle Maintenance Facility Efficiency –                                                         DR-AR-13-007
 Capital Metro and Pacific Areas

average of 72 percent 4 and the Postal Service's established 80 percent target 5 (see
Table 1).

              Table 1. FY 2012 Scheduled Maintenance Performance Indicators

                                                                                  Average Scheduled
                                                                                     Maintenance
                Area                                    District                    Performance 6
     Capital Metro                          Atlanta                                       66
                                            Baltimore                                     63
                                            Capital                                       57
                                            Greensboro                                    68
                                            Mid-Carolinas                                 66
                                            Northern Virginia                             65
     Capital Metro Area Average                                                           64

     Pacific                                Honolulu                                        66
                                            Sierra Coastal                                  68
     Pacific Area Average                                                                   67
    Source: Vehicle Maintenance Accounting System Indicator Performance Report.

The Capital Metro and Pacific areas also exceeded the unscheduled maintenance
national average ratio of 28 percent, budgeted costs, and the Postal Service’s
established target of 20 percent. Their unscheduled maintenance ratios were 38 7 and
35 8 percent, respectively. Our analysis of vehicle maintenance costs found the selected
VMFs expended $12,957,556 on unscheduled and other maintenance expenses. We
compared the costs to the national average and found they exceeded the maximum
costs allowed of $9,822,929 by $3,134,627 (see Table 2).




4
  The OIG analyzed the FY 2012 scheduled maintenance ratios for all 67 districts and determined the national
average was 72 percent, 8 percent below the established 80 percent scheduled maintenance target.
5
  Vehicle Maintenance Bulletin (VMB) 02-97, Vehicle Maintenance Standard Operating Procedures, October 8, 1996.
6
  This column is the Total Average Scheduled Maintenance Labor to Total Direct Labor =/>80 percent and Scheduled
Maintenance and Contract Labor to Total Direct Maintenance/Direct=/>80 percent.
7
  Capital Metro Area unscheduled maintenance was 10 percent above the national average.
8
  Pacific Area unscheduled maintenance was 7 percent above the national average.




                                                         2
  Vehicle Maintenance Facility Efficiency –                                                              DR-AR-13-007
   Capital Metro and Pacific Areas



                Table 2. FY 2012 Scheduled and Unscheduled Maintenance Costs

               Cost Type               Capital Metro Area Pacific Area                                       Total
Actual Scheduled Maintenance Costs        $16,687,461      $5,436,871                                     $22,124,332
Actual Unscheduled/Other Maintenance
Costs                                     $10,028,750      $2,928,806                                     $12,957,556
Total Maintenance Labor Costs             $26,716,211      $8,365,677                                     $35,081,888
Percentage of Actual Unscheduled/Other
Maintenance Costs to Total Maintenance
Labor Costs                                   38%             35%
Maximum Unscheduled/Other
Maintenance Costs                          $7,480,539      $2,342,389                                      $9,822,929
Unscheduled Maintenance Costs
Overages                                   $2,548,211       $586,416                                       $3,134,627
Source: Vehicle Maintenance Accounting System, Vehicle Maintenance Cost Report, for FY 2012 and Solutions for
Enterprise Asset Management Vehicle Maintenance Cost Report FY 2012.

  Selected districts also used commercial vendors to complete scheduled maintenance
  and vehicle repairs while attempting to fill vacant mechanic positions. A comparison of
  VMF labor and commercial labor costs showed the commercial labor costs exceeded
  VMF costs. Specifically, commercial labor rates ranged from $84.38 to $92.80 per hour,
  and VMF labor rates ranged from $39.91 to $54.09 per hour. The cost of workhours at
  the commercial labor rate for 44 vacant positions is $8,166,038, while the cost of
  workhours at the VMF labor rate is $4,383,808, a difference of $3,782,230 (see
  Table 3).

           Table 3. Comparison of VMF Labor Rates to Commercial Labor Rates

                        Total Commercial                Total VMF Labor
        Area                                                                                   Difference
                              Costs                           Costs
  Capital Metro              $4,056,790                      $2,191,904                       $1,864,886
  Pacific                     4,109,248                       2,191,904                        1,917,344
  Total                      $8,166,038                      $4,383,808                       $3,782,230
  Source: Vehicle Maintenance Accounting System Indicator Cost In Dollars Report.

  Further, the Capital Metro and Pacific areas exceeded the overhead labor 30 percent
  ratio 9 by 13 and 19 percent, respectively. The districts exceeded targeted workhours 10
  by 221,171, at a cost of $9,185,892. The overhead and workload allocation indicator
  compares overhead labor costs with maintenance labor costs. A high ratio indicates
  9
    The established ratio is 30 percent of workhours (VMB 02-97, Vehicle Maintenance Standard Operating
  Procedures, October 8, 1996).
  10
     The calculation includes the aadministrative hourly rate of $36.00 and supervisor rate of $48.00. Rates include
  rounding.




                                                            3
 Vehicle Maintenance Facility Efficiency –                                                          DR-AR-13-007
  Capital Metro and Pacific Areas

 staffing problems, such as too many clerical and supervisory positions or understaffing
 of mechanic positions (see Table 4).

         Table 4. FY 2012 Capital Metro and Pacific Area Overhead Workhours

                                                                            Total
                                                          Total           Workhours             Cost of
     Overhead                     Actual                Targeted            Above             Workhours
   Workhour Type                 Workhours             Workhours           Target            Above Target
 Administrative Hours             247,016                137,093           109,923            $3,957,245
 Supervisory Hours                248,595                137,347           111,248             5,228,647
        Total                     495,611                274,440           221,171            $9,185,892
 Source: OIG calculation using FY 2012 eFlash Workhour Report.

 VOMA support workhours for the Capital Metro Area exceeded management's estimate
 during FY 2012. Specifically, there were 23 VOMA positions assigned to the Capital
 Metro Area responsible for vehicles at one or more post offices within the geographic
 area. Our analysis of VOMA workhours showed actual workhours totaled 46,007, at a
 cost of $2,012,806. Management estimated that, generally, VOMAs only spent about 2
 hours per day conducting vehicle maintenance-related duties; however, our analysis
 showed that VOMAs typically charged over 2 hours per day.

 Based on management’s estimates and the current reporting structure, we calculated
 that VOMA workhours for vehicle-related duties should have been 16,120, 11 at a cost of
 $705,250. 12 Actual VOMA workhours exceeded management’s estimate by
 29,887 workhours, resulting in $1,307,556 in overages (see Table 5).

                              Table 5. FY 2012 VOMA Workhour Costs

         Workhour                       Total                    Workhour                    Total Workhour
      Type/Estimation                 Workhours               Type/Estimation                     Costs
                                                          Actual VOMA Workhour
 Actual VOMA Workhours                   46,007           Costs                                  $2,012,806
 Management’s                                             Management’s
 Estimated VOMA                                           Estimated VOMAs
 Workhours                               16,120           Workhour Costs                         $ 705,250
                                                          Total Excess Workhour
 Overage in Workhours                    29,887           Costs                                  $1,307,556
Source: OIG calculations using FY 2012 eFlash Workhour Report.


 11
    To calculate VOMA workhours based on management’s estimations, we calculated workhours of those VOMAs
 assigned to Vehicle Post Offices (VPOs) at 2 hours per day for 52 weeks, plus the workhours of VOMAs assigned to
 the VMFs at 8 hours per day for 52 weeks. We used the maintenance rate of $43.75 multiplied by 16,120 hours, for a
 workhour cost of $705,250.
 12
    The calculation includes the Maintenance PS-06 hourly rate of $43.75.




                                                         4
 Vehicle Maintenance Facility Efficiency –                                                             DR-AR-13-007
  Capital Metro and Pacific Areas



 The inefficiencies occurred because of the conditions described below.

     Performance Indicators. Management has not modified the performance
      indicators since they were established in October 1996, when the delivery and
      collection vehicle fleet was new. The OIG is not making a recommendation
      regarding this issue or the Postal Service's aging fleet in this report. 13

     Aging Fleet. Delivery and collection fleet vehicles range in age from 18 to 25 years.
      According to management, the age of the vehicle fleet increases the likelihood of
      unscheduled maintenance and the need for more major repairs, such as repairing
      or replacing rusted frames and engines. Some officials stated they extended
      intervals between scheduled maintenances to help reduce delinquent maintenance.

     Mechanic Vacancies. Districts have not filled vacant mechanic positions. In
      August 2011, the Postal Service entered into an agreement with the American
      Postal Workers Union to fill 740 vehicle mechanics. Hiring mechanics will allow the
      opportunity to reduce vehicle operating costs. As of November 2012, five of the
      eight districts reviewed in the Capital Metro and Pacific areas had vacant mechanic
      positions. 14 These districts had a total authorized complement of 241 mechanic
      positions, but filled only 197, leaving 44 positions vacant (see Table 6).

     Support Staff Vacancies. Management used mechanics on-board to perform
      duties for vacant support staff positions. For example, some managers assigned
      mechanics as tools and parts clerks and senior mechanics to supervisory positions
      to provide management and oversight in the VMFs.

     Management Oversight. Management oversight was not always adequate to
      ensure VOMAs performed their VMF-related duties. Officials indicated that, in the
      current reporting structure, VOMAs were generally located at the VPO and reported
      to VPO management. VMF managers did not establish or control work schedules.
      In some instances, VMF and VPO managers did not interact with one another to
      discuss duties of the VOMAs. Additionally, most VOMAs did not have vehicle
      maintenance experience and continued to perform their primary craft duties instead
      of VMF-related work.

Reducing unscheduled maintenance costs and improving oversight would increase
overall efficiency in these areas, saving over $17 million.


 13
    The OIG plans to conduct a nationwide VMF efficiency audit and we have an ongoing audit (Next Generation
 Collection and Delivery Vehicles) addressing the aging fleet.
 14
    The districts with mechanic vacancies include Baltimore, Mid-Carolinas, Northern Virginia, Honolulu, and Sierra
 Coastal. The total does not include the Atlanta, Capital, and Greensboro districts because they did not have vacant
 mechanic positions during the included period.




                                                           5
 Vehicle Maintenance Facility Efficiency –                                                   DR-AR-13-007
  Capital Metro and Pacific Areas



                   Table 6. FY 2012 Capital Metro and Pacific Area Complement

                           Authorized          Total Complement             Total Vacant Mechanic
        Area              Complement               (11/2012)                       Positions
 Capital Metro                155                     133                             22
 Pacific                       86                      64                             22
 Totals                       241                     197                             44
 Source: Webcoins Complement System, Capital Metro and Pacific areas mechanic ccomplement.

Recommendations

We recommend the vice presidents, Capital Metro and Pacific Area Operations, direct
district managers to:

1.   Fill vacant mechanic and support staff positions to improve inefficiencies in
     operations.

We recommend the vice president, Capital Metro Area Operations:

2.   Assess the reporting structure for vehicle operations maintenance assistants
     (VOMAs) and require vehicle maintenance managers, or designees, to provide
     adequate oversight of VOMAs to ensure they perform their vehicle
     maintenance-related duties.

Management’s Comments

Capital Metro Area management agreed in principle with the finding and
recommendations 1 and 2. Pacific Area management agreed with the finding and
recommendation 1. Both Capital Metro and Pacific areas disagreed with the monetary
impact.

In response to recommendation 1, Capital Metro Area management stated that, at the
time of the audit, there were clear opportunities in staffing; however, they noted the audit
was conducted in FY 2012 and the results were provided in Quarter 4, FY 2013.
Therefore, the results did not accurately reflect the area's current state of maintenance
operations. Management also stated the data were used from the Vehicle Management
Accounting System (VMAS), which was considered unreliable and was replaced with the
Solution Enterprise Asset Management (SEAM) system. Management further stated that
performance measures, while achievable when vehicles were up to 10 years old, were no
longer achievable as some vehicles in the fleet are now up to 25 years old. They also
stated that the overall area financial performance for FY 2013 through August 2013 is
2.33 percent less than same period last year, with year-to-date actual expenditures for
vehicle maintenance reduced by $735,311. This performance indicates improvement in




                                                     6
 Vehicle Maintenance Facility Efficiency –                                       DR-AR-13-007
  Capital Metro and Pacific Areas

the management of VMF functions, while deploying many vehicles to rural delivery
operations and assuming the additional vehicle maintenance responsibilities.

Management also stated they have recognized the vacancies as an issue since
January 2012 and focused on ensuring proper hiring and filling of vacancies well in
advance of this report. Staffing levels are monitored monthly and processes are in place
(vacancy posting, testing, and so forth) to fill the current 21 vacant automotive technician
positions. Further, to free up automotive technicians, management uses Postal Service
support employees to perform non-skill tasks, which has proven to be an effective
strategy.

Pacific Area management stated they continue to actively recruit and train employees and
potential employees to fill the vacancies. Management also stated they have filled 29 of
113 vacancies. Management has a target implementation date of January 2014.

Regarding recommendation 2, Capital Metro Area management stated that, at the time of
the audit, there were opportunities in the reporting structure for VOMAs; however, the
results do not accurately reflect the current state of the area's vehicle maintenance
operations. Management stated that district and area officials provide necessary oversight
to the VOMAs and, after their initial meeting with the OIG, they surveyed VOMAs on
August 16-19, 2013 to validate VOMAs' workhours for VMF-related duties. In subsequent
discussions, management stated they plan to require VOMAs to report to VMF
management daily and track their time in SEAM. The target implementation date is
January 31, 2014.

Neither Capital Metro or Pacific areas concurred with the monetary impact. Management
stated that no dollar savings exists due to inefficiencies, mismanaged assets, and
inadequate controls. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Capital Metro Area management stated the results did not accurately reflect the current
state of the area's vehicle maintenance operations. Nevertheless, in November 2012, the
Capital Metro Area had 22 vacant mechanic positions in three of six selected districts for
review. As of September 2013, the Capital Metro Area filled 11 of the vacancies identified
(50 percent).

Management also stated the data used in the report was gathered from VMAS, which was
considered unreliable and this system was replaced with SEAM. We used VMAS data
because it was the best available data for the entire fiscal year. Also, at the time of our
audit, the Capital Metro and Pacific areas had not used SEAM for the entire year. The




                                               7
 Vehicle Maintenance Facility Efficiency –                                      DR-AR-13-007
  Capital Metro and Pacific Areas

Capital Metro and Pacific areas transitioned to SEAM in November and June 2012,
respectively.

We recognized in the report that management had not modified the vehicle maintenance
performance indicators since they were established in October 1996, when the delivery
and collection vehicle fleet was new. We plan to conduct additional VMF efficiency audits
in other Postal Service areas along with our ongoing audit (Next Generation Collection
and Delivery Vehicles) that will address the aging fleet.

Regarding the monetary impact, we based our calculations on actual workhours for
FY 2012 and the national averages for scheduled and unscheduled maintenance. We
found opportunities to improve VMF operational inefficiencies at eight of the 16 districts
reviewed. Specifically, VMF operations in those eight districts were not operating
efficiently and exceeded labor cost estimates. We initially used the Postal Service's
vehicle maintenance performance indicator target of 80 percent, for scheduled
maintenance. However, at Capital Metro Area management’s request at the exit
conference in August 2013, we agreed to modify our calculations to use the national
average of 72 percent, for a monetary impact of $17,410,306. The OIG's methodology is
further explained in Appendix B of this report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.




                                              8
Vehicle Maintenance Facility Efficiency –                                     DR-AR-13-007
 Capital Metro and Pacific Areas



                                   Appendix A: Additional Information

Background

The Postal Service operates one of the world’s largest transport and delivery fleets
which includes 215,530 15 delivery, transport, and administrative vehicles. The Postal
Service-owned vehicles represent a capital investment of nearly $3.5 billion. The fleet is
maintained using the vehicle maintenance program at 321 Postal Service VMFs. The
vehicle maintenance program was established to ensure safe, dependable, and
economical performance of Postal-Service owned vehicles. They also contract with
commercial garages throughout the country for maintenance and repair. The scheduled
preventative maintenance program implements this objective by providing periodic
systematic examinations of Postal Service vehicles. During FY 2012, Postal Service
vehicle maintenance expenses totaled $1,087,046,269. The Capital Metro and Pacific
areas' vehicle maintenance expenses were $148,974,513 and $97,466,067,
respectively.

The Postal Service developed a series of guidelines for conducting scheduled
maintenance, which must be used for both contractors and in-house VMF services.
VMF managers must schedule maintenance to reflect a consistent and balanced
workload. To ensure vehicle servicing is kept up to date, scheduled maintenance
services must be completed within 2 weeks of their due date.

The Postal Service also established performance indicators to gauge the effectiveness
and efficiency of the vehicle maintenance program. These indicators include scheduled
and unscheduled maintenance and overhead and workload allocation. Scheduled
maintenance ensures that mechanics are used productively and vehicles are available
for delivery services. Vehicles will experience some degree of unscheduled repair. The
better the scheduled maintenance program is, the fewer unscheduled repairs will occur.
The target ratio for scheduled and unscheduled maintenance is 80 percent and 20
percent, respectively. The overhead and workload allocation indicator compares
overhead labor costs with maintenance labor costs. The target ratio for overhead labor
costs is 30 percent. A high ratio indicates staffing problems, such as too many clerical
and supervisory positions or understaffing of mechanic positions.

Objective, Scope, and Methodology

Our objective was to assess the overall efficiency of VMF operations. We assessed
operations in the Capital Metro and Pacific areas, including a review of vehicle
maintenance operations at selected VMFs.


15
     Postal Facts, dated January 16, 2013.




                                                   9
Vehicle Maintenance Facility Efficiency –                                        DR-AR-13-007
 Capital Metro and Pacific Areas



Specifically, we:

   Obtained, reviewed, and analyzed FY 2012 scheduled maintenance performance
    indicators by area and district. For our review, we selected districts in the Capital
    Metro and Pacific areas with a combined scheduled maintenance average score
    below 70 percent.

   Obtained, reviewed, and analyzed vehicle operations data from eFlash, VMAS, and
    SEAM.

   Identified and compared FY 2012 VMF and commercial labor expenditures for
    scheduled maintenance. We determined the number of required maintenance
    procedures completed or not completed by the 2-week deadline and the causes of
    maintenance not being completed.

   Conducted site visits and interviews with area and district officials to obtain
    information on vehicle operations and discussed the vehicle maintenance
    performance of the selected districts.

   Obtained and reviewed vehicle maintenance costs and compared scheduled and
    unscheduled maintenance costs to determine whether VMFs were meeting the
    scheduled maintenance ratio and obtained rationale for not meeting the established
    goal.

   Compared overhead workhours to mechanic workhours to determine whether
    overhead labor exceeded the target ratio and obtained rationale for exceeding the
    ratio.

   Examined the use of VOMA support and compared reported workhours to actual
    workhours used to conduct vehicle maintenance-related work in the Capital Metro
    Area.

   Reviewed applicable vehicle maintenance documentation, policies, and procedures.

We conducted this performance audit from October 2012 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 20 and 22, 2013, and
included their comments where appropriate.




                                              10
Vehicle Maintenance Facility Efficiency –                                        DR-AR-13-007
 Capital Metro and Pacific Areas



We assessed the reliability of vehicle maintenance performance and cost data from
VMAS, Solutions for Enterprise Asset Management, and eFlash by reviewing data
elements and interviewing personnel knowledgeable about vehicle maintenance
performance and cost information. We determined that the data were sufficiently reliable
for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             11
Vehicle Maintenance Facility Efficiency –                                                            DR-AR-13-007
 Capital Metro and Pacific Areas

                                     Appendix B: Monetary Impact

         Recommendations                     Impact Category16                              Amount
               1                      Funds Put to Better Use                              $3,134,627
               1                      Funds Put to Better Use                               3,782,230
               1                      Funds Put to Better Use                               9,185,892
               2                      Unsupported Questioned Costs                          1,307,556
         Total                                                                            $17,410,306

As a result of inefficiencies, mismanaged resources, and inadequate controls, we
identified $17,410,306 of monetary impact.

Unscheduled Maintenance

The national average for unscheduled and other maintenance is 28 percent. The VMFs
spent $12,957,556 on unscheduled and other maintenance. According to OIG analysis,
the cost for unscheduled/other maintenance for FY 2012 was $9,822,929. The selected
districts exceeded this amount by $3,134,627. To achieve the national average the
selected VMFs must reduce their unscheduled maintenance cost by $3,134,627. We
are claiming $3,134,627 as funds put to better use.

Commercial Labor

As of November 2012, five of the eight districts reviewed had vacant mechanic
positions. 17 The five districts had a total authorized complement of 241 mechanic
positions, but filled only 197 positions, leaving 44 positions vacant. The cost of
workhours at the commercial vendor rate for 44 vacant positions is $8,166,038, while
the cost of workhours at the VMF labor rate is $4,383,808. The difference between the
commercial vendor rate and VMF labor is $3,782,230. Bringing the VMF mechanic
positions to their required complement may reduce vehicle operations costs by
$3,782,230. We are claiming $3,782,230 as funds put to better use.


Overhead Costs

During FY 2012, the selected districts in the Capital Metro and Pacific areas exceeded
the target total by 221,171 workhours, or 109,923 administrative and 111,248
supervisor workhours. The workhours above the target cost is $9,185,892 or
$3,957,245 for administrative workhours and $5,228,647 for supervisory workhours.

16
   Funds Put to Better Use - funds that could be used more efficiently by implementing recommended actions.
Unsupported Questioned Costs - a weaker claim and a subset of questioned costs that is claimed because of failure
to follow policy or required procedures, but does not necessarily connote any real damage to the Postal Service.
17
 The total does not include the Atlanta, Capital, and Greensboro districts because they did not have vacant
mechanic positions during the included period.




                                                        12
Vehicle Maintenance Facility Efficiency –                                                         DR-AR-13-007
 Capital Metro and Pacific Areas

To improve vehicle operations overhead costs, the VMFs must reduce their overhead
labor costs. We will claim $9,185,892 as funds put to better use.

Vehicle Operations Maintenance Assistant Support

During FY 2012 for the districts in the Capital Metro Area using VOMA support, the total
workhours were 46,007 at a cost of $2,012,806. Based on VOMAs performing 2 hours
of VMF-related duties, we determined VOMAs assigned to VPOs performed only 16,120
hours of VMF-related work. 18 As a result of the lack of VMF management oversight and
the existence of inadequate controls, we identified 29,887 workhours at a cost of
$1,307,556, not related to VMF work. We will claim $1,307,556 as questioned
unsupported costs.




18
  To calculate VOMA workhours based on management’s estimates, we calculated the workhours of VOMAs
assigned to VPOs at 2 hours per day for 52 weeks, plus the workhours of VOMAs assigned to the VMFs at 8 hours
per day for 52 weeks. We used the rate of $43.75 and multiplied that by 16,120 for workhour costs of $705,250.




                                                       13
Vehicle Maintenance Facility Efficiency –                       DR-AR-13-007
 Capital Metro and Pacific Areas


                            Appendix C: Management's Comments




                                            14
Vehicle Maintenance Facility Efficiency –        DR-AR-13-007
 Capital Metro and Pacific Areas




                                            15
Vehicle Maintenance Facility Efficiency –        DR-AR-13-007
 Capital Metro and Pacific Areas




                                            16
Vehicle Maintenance Facility Efficiency –        DR-AR-13-007
 Capital Metro and Pacific Areas




                                            17
Vehicle Maintenance Facility Efficiency –        DR-AR-13-007
 Capital Metro and Pacific Areas




                                            18
